Department of Homeland Security
   Ofﬁce of Inspector General

   United States Secret Service After-Action 

         Review of Inaugural Security 


                  (Redacted)





OIG-10-04                             October 2009
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                      October 19, 2009

                                          Preface

The Department of Homeland Security Office of Inspector General was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report addresses the strengths and weaknesses of the United States Secret Service
after-action review of concerns raised in the Washington Post on January 30, 2009, on
inaugural security. It is based on interviews with employees and officials of relevant
agencies and institutions, interviews with members of the public, direct observations, and
a review of applicable documents.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................3 


Results of Review ................................................................................................................7 


     USSS Is Proficient at Evaluating and Improving Its Process ........................................7 

     Overall Inaugural Security Was Satisfactory...............................................................11 

     USSS Met Standards Sought by Congressional Inquiry..............................................21 


OIG Analysis of Management Comments.........................................................................24 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................25 

     Appendix B:           Management Comments to the Draft Report .......................................27 

     Appendix C:           Relevant Articles and Correspondence................................................28 

     Appendix D:           Relevant Graphics................................................................................35 

     Appendix E:           Major Contributors to This Report ......................................................39 

     Appendix E:           Report Distribution ..............................................................................40 


Abbreviations
     DHS                   Department of Homeland Security 

     FBI                   Federal Bureau of Investigation 

     FEMA                  Federal Emergency Management Agency 

     JCCIC                 Joint Congressional Committee on Inaugural Ceremonies 

     OIG                   Office of Inspector General 

     PIC                   Presidential Inaugural Committee          

     USSS                  United States Secret Service 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   House Homeland Security Committee Chairman Bennie
                   Thompson requested that we review concerns of lax security cited
                   in a January 30, 2009, Washington Post article. Specifically,
                   Chairman Thompson requested that we:

                   •	 Review the United States Secret Service protective security
                      plans for the inauguration;
                   •	 Investigate and identify any deficiencies in security operations,
                      including communications and information sharing between
                      security personnel, deviations from security plans, and any
                      mitigating circumstances or justifications; and
                   •	 When appropriate, critique these operations and make
                      recommendations to strengthen Secret Service practices.

                   Chairman Thompson also asked that we assess what Secret Service
                   may do differently to protect the nation’s first African-American
                   President.

                   Our review focused on two issues: (1) the adequacy of security at
                   the events described in the Washington Post article and (2) how
                   well the Secret Service managed its after-action review of the
                   concerns cited in the article. The article described ticket-sharing
                   practices that the political hosts of inaugural events have discretion
                   to allow, rather than deficiencies in physical screening measures
                   that the Secret Service uses to provide security. The article also
                   described other permitted activities, such as bringing a camera
                   without live batteries through screening or posing for photographs
                   near presidential vehicles. We evaluated the article’s concerns that
                   screened guests mingled with the public, but determined that
                   Secret Service security measures were not readily identifiable to
                   inaugural participants. We determined that the Secret Service
                   after-action review was prompt and thorough, and designed to
                   identify security planning and implementation weaknesses. We
                   also concluded that the Secret Service risk assessments and
                   security plans for the events described in the article were
                   reasonable. Because the Secret Service after-action report
                   identified and addressed areas for improvement, we recommend


            United States Secret Service After-Action Review of Inaugural Security


                                           Page 1

       that Secret Service inform us of the implementation of these
       changes.




United States Secret Service After-Action Review of Inaugural Security


                               Page 2

Background
                           When the Department of Homeland Security (DHS) designates a
                           major event, such as the Olympic Games or a political party
                           convention, a National Special Security Event, the United States
                           Secret Service (USSS) is the lead federal agency responsible for
                           the planning, coordination, and implementation of the operational
                           security plan.1 In addition, “the Federal Bureau of Investigation
                           (FBI) is the lead agency for intelligence and counterterrorism, and
                           the Federal Emergency Management Agency (FEMA) is the lead
                           agency for coordinating an effective response to possible
                           emergencies.”2 For the January 2009 inaugural events, uniformed
                           DHS and other federal law enforcement components provided
                           personnel and equipment, including screening magnetometers.
                           State and local police from the District of Columbia, Virginia, and
                           Maryland, and police from other regions, also provided security.
                           In total, USSS obtained assistance from nearly 30,000 law
                           enforcement officers from 58 federal, state, and local law
                           enforcement agencies for the events.

                           In addition, USSS partnered with the Joint Congressional
                           Committee on Inaugural Ceremonies (JCCIC) and Presidential
                           Inaugural Committee (PIC) to plan logistics and security for the
                           inaugural events. About a year before every presidential
                           inauguration, Congress creates a JCCIC to plan the official
                           inaugural ceremonies at the Capitol, including the swearing-in of
                           the President and Vice President of the United States. The JCCIC
                           traditionally prints 240,000 inaugural tickets, which are color-
                           coded with a designated seating area but do not assign seats. (See
                           appendix D, figure 1.) Tickets are issued to limit the size of
                           crowds at inaugural events. Most of the 240,000 tickets are
                           distributed by members of Congress to constituents, but a block is
                           reserved for the PIC to distribute to VIPs such as donors,
                           dignitaries, foreign government officials, and friends and family of
                           outgoing and incoming administration officials. USSS uses the
                           seating plans and projected audience size to plan security, but does
                           not obtain lists of individuals who have received tickets. Security
                           at the inauguration is based on physical screening of the audience

1
  See 18 U.S.C. § 3056(e)(1) (amended to clarify USSS authority for security operations at events and
gatherings of national significance; authorizing the USSS to participate in the planning, coordination, and
implementation of security operations at special events of national significance.)
2
  Statement for the Record, Mark Sullivan, Director, USSS. Before the Committee on Appropriations
Subcommittee on Homeland Security, U. S. House of Representatives, March 25, 2009. Found at:
http://appropriations.house.gov/Witness_testimony/HS/Mark_Sullivan_03_25_09.pdf



                   United States Secret Service After-Action Review of Inaugural Security


                                                   Page 3

                          and protection of officials, recognizing that elected officials should
                          lead the decision on who attends inaugural events.

                          The tickets for audience seats closest to the Capitol are coded as
                          orange or yellow, while the purple and blue seating areas are
                          slightly further from the Capitol, and the silver seating area farthest
                          away. (See appendix D, figure 2.) Many dignitary VIPs were
                          seated in reserved sections of the presidential platform during the
                          inauguration. Dignitary VIPs included officials from former
                          administrations, civil rights and labor leaders, and groups and
                          individuals recognized for their achievements. Most donor VIPs
                          were seated in the orange- and yellow-ticketed seating areas.
                          Donor VIPs financed or collected contributions for the Obama
                          campaign or for inaugural events.

                          The PIC, appointed shortly after the election by the President-elect,
                          has responsibility for all other official inaugural events. The PIC
                          had about 400 staff to plan the Lincoln Memorial concert, three
                          bipartisan dinners, concerts and dances, the inaugural parade, 10
                          official inaugural balls, various meals for VIPs, and events for
                          friends and families of the President and Vice President-elect. The
                          PIC also distributed tickets to VIPs at the Washington Convention
                          Center. About 18,000 JCCIC and PIC volunteers, many of whom
                          had worked on the Obama presidential campaign, provided support
                          for the inaugural activities.

                          Accounts of the January 2009 inauguration events were generally
                          positive, with two exceptions. The most publicized concerns cited
                          during and after the events were from purple and silver ticket-
                          holders who were unable to enter their designated areas. This
                          resulted in JCCIC Chairman Senator Dianne Feinstein’s request for
                          a review of the planning and implementation of crowd
                          management and communication. The USSS, Capitol Police,
                          Washington Metropolitan Police, and United States Park Police
                          conducted a joint investigation. Their report, the Multi-Agency
                          Response to Concerns Raised by the Joint Congressional
                          Committee on Inaugural Ceremonies for the 56th Presidential
                          Inauguration (Multi-Agency Response) was completed on
                          March 17, 2009.3 The Multi-Agency Response identified crowd
                          management and communication weaknesses and made 38
                          recommendations for improvement. Most of the recommendations
                          addressed issues concerning ticket-holders who were unable to

3
 The unclassified Executive Summary is available online (http://inaugural.senate.gov/documents/doc-
032309-multiagencyreport.pdf).



                   United States Secret Service After-Action Review of Inaugural Security


                                                  Page 4

                           enter secured areas of the Capitol and along the parade route. Two
                           identified opportunities to establish better real-time cell phone or
                           Internet communication with the public. The Multi-Agency
                           Response concluded that the USSS security plan was successful in
                           providing protection.

                           Less publicized was an article in the Washington Post on
                           January 30, 2009, citing six named and additional unnamed
                           campaign donors and bundlers (donation collectors), most of
                           whom said that security at the inauguration appeared lax.4 These
                           donor VIPs boarded buses for the inaugural at the Renaissance
                           Hotel at Ninth and Eye Streets, NW. Dignitary VIPs also boarded
                           buses at the Renaissance Hotel, but through a different screening
                           process. (For the full text of the article, see appendix C, figure 1.)

                           The Washington Post article cited six concerns:

                           •	 The donor VIPs were not asked to show identification to
                              retrieve tickets and VIP passes that allowed them and their
                              guests to meet with President Obama.
                           •	 After a screening to sit in a ticketed area for the swearing-in
                              ceremony, they mingled with public crowds and were never
                              again checked for firearms or explosives.
                           •	 After security screening, they were told to find their way across
                              a public street to board “secure” buses that would take them to
                              the Capitol for the swearing-in ceremony.
                           •	 One individual was waved through security with a camera that
                              had no batteries despite warnings that the camera would have
                              to be operational.
                           •	 They watched other VIPs lean on the President-elect’s
                              limousine, posing for pictures.
                           •	 One donor flashed a handful of passes to gain access to a room
                              and brought in an extra guest to meet Vice President Biden at a
                              breakfast for donor VIPs, referred to as the “Biden Breakfast”.

                           The Washington Post article noted that three of the donors named
                           in the article were sending instant messages by cell phone using an
                           Internet-based service, Twitter.com. (See appendix D, figure 4.)
                           The text of these instant messages, or tweets, was available in real
                           time to the general public by Internet or cell phone. Specifically,
                           one bundler sent a message at 6:45 AM, “We were thoroughly x-
                           rayed, then walked across a public street in the open. WTF?” A

4
    Aaron Davis, “Security Around Obama Alarms Some VIP Donors,” Washington Post, January 30, 2009.



                    United States Secret Service After-Action Review of Inaugural Security


                                                   Page 5

                          donor concurred at 6:55 AM, forwarding the original message and
                          adding “True. And yikes.” Another donor responded at 7:44 AM,
                          “If I got this sooner, wd have slept & snuck in.”

                          On February 2, 2009, Chairman Bennie Thompson requested that
                          we review concerns of lax security cited in the Washington Post
                          article. (See appendix C, figure 2.) On February 3, 2009, we
                          received a letter from the director of USSS offering full
                          cooperation with our review. On February 4, 2009, the
                          Washington Post printed a follow-up article noting the
                          congressional request for a DHS OIG review. (See appendix C,
                          figure 3.) On March 17, 2009, the Multi-Agency Response was
                          completed. Although we will refer to issues addressed in the
                          Multi-Agency Response, we will not make recommendations on
                          improving communication on security, since they would be
                          redundant to that report’s recommendations. The Multi-Agency
                          Response recommends a government inaugural website through
                          which the public could report suspicious activity, as well as
                          monitoring public websites and social networking information
                          during the inaugural to track potential problems.5

                          USSS protection involves four elements, each of which contributed
                          to security during the 2009 inauguration. First, USSS continually
                          monitors potential threats against protected officials, most of
                          which are reported by protectees who receive the threats or
                          members of the public who become aware of threats. USSS works
                          with intelligence agencies and federal and local law enforcement to
                          identify potentially dangerous activity, and monitors Internet
                          chatter and other sources of information. Second, cooperation with
                          other law enforcement agencies and field campaign offices
                          multiplies sources of information and may identify plots based on
                          local knowledge. Third, extensive advance planning identifies
                          potential vulnerabilities and best security options in each location
                          where a protected official is scheduled to appear. These three
                          elements have proven effective at deterring and disrupting plots
                          against protectees. For lone gunmen, who historically have
                          targeted political candidates without signaling their intentions in
                          advance, the USSS relies on the aforementioned elements of
                          protection, as well as the fourth element of round-the-clock
                          screening of the public and physical protection of designated
                          officials by armed personnel on the day of the event. Although our


5
 The unclassified Executive Summary is available online (http://inaugural.senate.gov/documents/doc-
032309-multiagencyreport.pdf).



                   United States Secret Service After-Action Review of Inaugural Security


                                                  Page 6

                   report discusses each element, the primary focus will be on
                   physical screening on the day of the inaugural events.


Results of Review
     USSS Is Proficient in Evaluating and Improving Its Process
          The USSS investigation of the security concerns cited in the
          January 30, 2009, Washington Post article was timely and thorough. We
          concluded from our participation in USSS-led interviews, and our review
          of planning documents and of work papers from USSS-led interviews, that
          USSS maintains a culture of self-examination. USSS interviews with its
          own special agents and Uniformed Division, and with partner law
          enforcement agencies, are designed to identify both actual and potential
          security weaknesses. During these interviews, law enforcement officers
          offered frank appraisals of the strengths and weaknesses of security plans
          and implementation. USSS interviews with PIC staff and with the donor
          VIPs mentioned in the Washington Post article also demonstrated the
          USSS commitment and ability to identify and address areas for
          improvement.

                   USSS Methodology Is Appropriate

                   USSS took the concerns cited in the Washington Post article
                   seriously. By Monday, February 2, 2009, USSS had assigned its
                   Office of Professional Responsibility to conduct an after-action
                   review. USSS selected senior agents who were not involved in the
                   inaugural security planning to conduct the review. On
                   February 3, 2009, USSS Director Sullivan wrote to inform us of
                   their internal review, and when we met with USSS officials on
                   February 4, 2009, those officials offered cooperation with our
                   parallel review.

                   USSS devoted considerable resources to interviewing eyewitnesses
                   to the events described in the Washington Post article as quickly as
                   possible, even though USSS was simultaneously conducting the
                   Multi-Agency Response review. Within the first week, USSS
                   officials interviewed most of its eyewitness special agents and
                   Uniformed Division personnel, and many U.S. Capitol Police and
                   Washington Metropolitan Police officers. USSS officials made
                   their interview notes and draft notes from these interviews
                   available to us. To learn more about the allegations cited in the
                   article, the USSS public affairs office asked the Washington Post



            United States Secret Service After-Action Review of Inaugural Security


                                           Page 7

       to comment on the article; however, the Washington Post declined
       the request. In the succeeding week, USSS officials identified,
       contacted, and interviewed PIC staff who were present at the
       events. A USSS special agent, accompanied by an OIG inspector,
       traveled to four cities on the West Coast to interview four of the
       people named in the Washington Post article. The USSS special
       agent, accompanied by an OIG inspector, interviewed a fifth
       person in Washington. Although the rapid USSS response meant
       that we were not present for many of the initial law enforcement
       interviews, this approach ensured that recollections were recorded
       while they were still fresh.

       Conduct of Law Enforcement Interviews Was Sufficient

       Based on our review of USSS planning documents and interview
       summary notes, we concluded that USSS expects constructive
       criticism, initiative to address security weaknesses as they are
       identified, and after-action performance critiques. The USSS
       personnel stated that they observed no security breaches at any of
       the inaugural events, and no attempted breaches at the Renaissance
       Hotel staging site. However, several special agents stationed at the
       Renaissance Hotel said that the logistical arrangements for staging
       VIPs on the morning of the inauguration could have been better.
       Some concerns were addressed immediately, for instance by using
       police caution tape to improve flow and by using hand-held
       magnetometers to screen dignitary VIPs immediately before they
       boarded buses. The final placement of stationary magnetometers
       followed the original plan. However, the plan also allowed for an
       alternative arrangement, and special agents discussed other
       arrangements during setup, indicating that special agents are
       expected to evaluate plans and discuss supervisory decisions.

       Ultimately, USSS’ internal after-action review concluded that in
       the event of a future similar staging requirement, it would be
       preferable to have the stationary magnetometers on the same side
       of the street as the buses. This conclusion indicates that security
       arrangements for the donor VIPs at the Renaissance Hotel could
       have been better. However, it also demonstrates that USSS has an
       internal capacity to examine its operations and make
       recommendations to strengthen its practices.

       The interviews we observed with the U.S. Capitol Police and
       Washington Metropolitan Police officers who escorted the VIPs
       were designed to elicit accurate recollections of what happened at
       the Renaissance Hotel. USSS negotiated in advance with the U.S.


United States Secret Service After-Action Review of Inaugural Security


                               Page 8

       Capitol Police chief and Capitol Police inspector general to ensure
       that interviewed witnesses would understand that USSS was
       evaluating its own performance. USSS also explained to
       Metropolitan Police officers that they were participating as
       witnesses. USSS asked sufficient questions about the general
       conditions on Inauguration Day to establish that these officers
       were recalling events and commenting candidly. For example,
       officers independently recounted similar memories of the
       entourages they escorted before and after the VIPs, the order in
       which the officers arrived at the parking lot, and that most could
       see Ninth Street, NW, but not the magnetometers. In addition,
       several officers brought a work log to the interview and referred to
       it for details. USSS also relied on the U.S. Capitol Police to close
       gaps in the timeline of events, as USSS agents and PIC staff all had
       slightly different recollections, and none had reason to keep a log.

       USSS conducted 63 interviews with USSS special agents and
       Uniformed Division personnel about what they saw at the Lincoln
       Memorial on January 18, 2009, and at the Capitol on
       January 20, 2009. We did not observe these interviews and the
       interview summary notes for the Lincoln Memorial interviews
       were less detailed than for the Renaissance Hotel. However, the
       interview notes included sufficient independent recollections that
       we consider credible enough to support their conclusion that there
       were no security breaches at these sites. For example, many of the
       personnel recounted that some of their law enforcement
       counterparts stood down soon after the President-elect left the
       stage at the Lincoln Memorial concert. Personnel in the Security
       Room and in the field agreed that this issue had been reported and
       USSS personnel were told to remain at their posts. Interview notes
       included anecdotes of individuals who had attempted
       unsuccessfully to gain access, from which we concluded that each
       officer was asked to recall any unusual events. One of the
       personnel posted at a checkpoint a considerable distance from the
       Lincoln Memorial stage questioned whether security was adequate,
       while noting that he did not know how far from the stage the
       people he screened would be seated. Two mentioned
       miscommunication on a posting that was quickly resolved. None
       of those interviewed remembered donor VIPs near the presidential
       limousine, but those posted near the limousines remembered
       entertainers who had been photographed there. We believe these
       responses indicate that USSS interviewers asked enough questions
       to identify any security breaches, and that the personnel were
       expected to express their concerns.



United States Secret Service After-Action Review of Inaugural Security


                               Page 9

       USSS Managed PIC Staff and Donor VIP Interviews Well

       The interviews that USSS conducted with PIC staff who planned
       the Renaissance Hotel staging were designed to assess accurately
       USSS security at inaugural events. USSS officials prefaced
       interviews by explaining that their interest was in understanding
       what happened and identifying any security breaches so that they
       would not recur. USSS officials provided PIC staff with copies of
       the January 30, 2009, Washington Post article and the
       February 4, 2009, congressional letter, as well as site maps. The
       interviews with the PIC staff were less structured than the
       interviews conducted with the law enforcement officers, but each
       was asked the same questions about logistics, timing, and security.
       USSS was not defensive about its plans and implementation, and
       did not challenge a PIC staff member who described donor VIP
       staging as less than ideal. We conducted separate telephone
       interviews with additional PIC staff, and determined that their
       recollections were similar to those interviewed by USSS officials.
       The interviews demonstrated that USSS officials took concerns
       about security seriously and conducted interviews designed to
       elicit information about breaches or lapses in security.

       The interviews that a USSS special agent conducted with the five
       donor VIPs were also designed to obtain an accurate assessment of
       what the donor VIPs had observed. As with the PIC staff, the
       USSS official told the donor VIPs that the USSS goal was to
       determine what happened and to identify and address any breaches
       in security. The rapport the USSS interviewer established led two
       donor VIPs to volunteer that they themselves had participated in
       ticket-sharing. The two had believed ticket-sharing to be a security
       breach rather than a PIC crowd management issue. The interviews
       produced a few additional details that had not been mentioned in
       the Washington Post article, such as that one donor VIP did not
       think the search of his belongings was sufficiently thorough. The
       USSS official did not attempt to influence how the donor VIPs
       remembered or interpreted events, beyond informing them well
       into the interview that USSS does not rely on ticket checks as a
       security measure. When two of the donor VIPs indicated that they
       were conflicted about expressing security concerns in public, the
       USSS interviewer focused on their shared goal of identifying and
       preventing potential security breaches. The Washington Post
       provided assistance by forwarding to the unnamed sources in the
       Post article a letter that the Office of Inspector General wrote to
       request that these sources allow us to interview them, but no
       additional witnesses came forward. We concluded that USSS


United States Secret Service After-Action Review of Inaugural Security


                               Page 10

                         methodology for following up on public concerns about security
                         was effective in obtaining necessary information.


        Overall Inaugural Security Was Reasonable
                 Several PIC staff told us that they attributed the inauguration’s successful
                 security to the 18 months of prior experience the Obama campaign and
                 USSS had working together. Although the reason for the long relationship
                 was, as articulated by Senator Dick Durbin, the “sad reality of this day and
                 age that Mr. Obama’s African-American heritage is the cause for a very
                 violent and hated reaction from some people,” the cumulative shared
                 experience was beneficial.6 USSS personnel and the campaign team,
                 many of whom became PIC staff, had worked together at progressively
                 larger and more complex events. USSS officials had experience with the
                 nature of threats to candidate Obama’s security, as well as the unusually
                 large, but generally peaceable, crowds he attracted. USSS officials
                 brought experience and flexibility to their advance planning, and
                 coordinated on security issues with its law enforcement partners and the
                 PIC. There were no known security breaches at inaugural events.

                         USSS Is Actively Engaged in Threat Assessment

                         From early in the campaign season through inauguration, the
                         media reported, and USSS officials confirmed, that the volume of
                         documented threats against President Obama was the largest in
                         American history. The increase in the volume of reported threats
                         may have been due in part to greater public concern that such
                         threats might be carried out. Media reports document that political
                         leaders, law enforcement officers, intelligence agencies, campaign
                         and inaugural staff, mental health workers, educational institutions,
                         and neighbors reported concerns to USSS. The media also
                         reported, and USSS officials confirmed, that a significant
                         percentage of the threats focused on President Obama’s position as
                         the first African American to be nominated by a major party and
                         the first African American to be elected President. In addition,
                         USSS officials told us that they investigated threats that are
                         typically made against every presidential candidate, whether
                         motivated by opposition to the candidate’s political positions or by
                         mental instability. USSS officials noted that their investigations
                         did not indicate that those making threats against President Obama


6
 Eric Krol, “Secret Service To Guard Obama: Racial Threats, High Profile Prompt Extra Protection,”
Chicago Daily Herald, May 4, 2007



                  United States Secret Service After-Action Review of Inaugural Security


                                                 Page 11

                          were more capable of carrying them out than those who had
                          targeted other candidates.

                          The USSS policy of investigating every identified potential threat
                          did detect and disrupt a number of groups conspiring to commit
                          acts of violence against the President-elect. The media
                          documented more than 10 cases that resulted in criminal
                          prosecution, as many additional cases in which individuals were
                          sanctioned for inappropriate conduct, and several more cases in
                          which individuals were committed for psychiatric evaluation and
                          treatment. USSS was also alert to the possibility of a security risk
                          within the U.S. Capitol Police and brought it o the attention of the
                          Secretary. The U.S. Capitol Police suspended two officers for
                          inappropriate behavior to prevent them from working during the
                          inauguration.7

                          Planning for Security Mixed Experience With Flexibility

                          Planning for an inauguration starts well before either party holds
                          its nominating convention. It builds on experience from previous
                          inaugurations, a practice that both helped and hindered the success
                          of the 2009 inauguration. Both the Multi-Agency Response report
                          and PIC staff noted that USSS officials, some law enforcement
                          agencies, and political partners tried to adjust traditional inaugural
                          practices to the unprecedented challenges they would face with the
                          anticipated size of the crowd and the historic inauguration of the
                          first African-American President. For each inauguration, the PIC
                          is established only after the election, generally comprising staff
                          who had worked on the President-elect’s campaign, a fact that
                          inevitably limits planning options for both the PIC and USSS.
                          JCCIC based its original plans on a 1-day inauguration celebration,
                          while the Obama inauguration provided 4 days of events, including
                          a logistically complex train tour from Philadelphia to Washington,
                          a concert at the Lincoln Memorial, smaller concerts, public service
                          activities, and dining events attended by the President- or Vice
                          President-elect or their spouses.

                          Nonetheless, USSS security plans provided an overall strategy,
                          lead responsibilities, hours of operation, the purpose and
                          authorized access for various checkpoints, communication, and
                          backup, relief, and crisis response options. Some of the crowd

7
 Spencer Hsu, Mary Beth Sheridan, and Carrie Johnson, “No Chances Taken at Inauguration: Suspension
of 2 Capitol Police Officers Illustrates Extraordinary Security Precautions,” Washington Post, March 6,
2009.



                   United States Secret Service After-Action Review of Inaugural Security


                                                  Page 12

                         control issues described in the Multi-Agency Response were a
                         result of exceptionally stringent security planning. Privately
                         owned vehicles were prohibited in certain areas, bridges were
                         closed, and aircraft were diverted. These restrictions allowed the
                         USSS personnel and their law enforcement partners to limit and
                         control car and pedestrian traffic in the downtown area, but
                         required complex bus staging operations to move authorized guests
                         through the city. Despite the unprecedented crowd sizes, there was
                         “not one major security incident, arrest, or injury reported.”8

                         USSS Coordinated With Partners Despite Fluid Situation

                         Both PIC planners and USSS agents responsible for advance
                         planning described inaugural planning as fluid and requiring
                         continuous coordination, either directly or through coordinating
                         committees and subcommittees. The JCCIC or PIC provided
                         USSS personnel information on the size and significance of each
                         event, and the USSS personnel and law enforcement partners
                         formulated security requirements. In practice, USSS personnel
                         adapted, where possible, to the PIC goals of facilitating participant
                         logistics. PIC staff and the USSS supervisory special agent
                         responsible for the staging area at the Renaissance Hotel confirmed
                         that they began coordinating security and logistical plans about a
                         month before the inauguration. However, decisions on which
                         buses were staged there changed several times before the week of
                         the inauguration, and logistics for managing the dignitary VIPs
                         were revised on the morning of the inauguration. This flexibility
                         required USSS law enforcement partners to adapt as well.
                         Although some USSS special agents and Uniformed Division
                         personnel expressed frustration at the fluidity of the plans, and
                         some PIC staff articulated concerns that plans on the grounds of
                         the Capitol were insufficiently flexible, everyone involved in the
                         implementation of events described in the Washington Post article
                         told us their overall communication capability and level of
                         coordination were good.

                         Execution Involved No Unaddressed Security Breaches

                         The concerns cited in the Washington Post article about lax
                         security centered on five inaugural events. Overall, we concluded
                         that most of the concerns arose because participants were not

8
  Executive Summary of Findings: Multi-Agency Response to Concerns Raised by the Joint Congressional
Commitee on Inaugural Ceremonies for the 56th Presidential Inauguration, March 20, 2009,
http://inaugural.senate.gov/documents/doc-032309-multiagencyreport.pdf.



                  United States Secret Service After-Action Review of Inaugural Security


                                                 Page 13

       aware of distinctions between crowd control measures (such as
       tickets) and security (such as magnetometer screening), or were not
       familiar with USSS security guidelines. We conducted extensive
       interviews and revisited the Renaissance Hotel staging site on
       several occasions before forming any conclusions on concerns that
       donor VIPs could have mingled with the general public. We
       eventually determined that there was adequate security during the
       VIP staging, but that much of it would not have been visible to the
       donor VIPs who expressed concerns. In addition, we determined
       that security was commensurate with the potential threat. While
       the donor VIPs were guided across a public street before boarding
       the buses to the inaugural ceremony, their seats at the inaugural
       ceremony were a considerable distance from the inaugural
       platform, and the individuals on the platform were protected by
       bullet-resistant glass. In contrast, USSS agents used a hand-held
       magnetometer to screen each dignitary VIP who sat on the
       inaugural platform immediately before they boarded the buses, and
       the PIC verified identities and invitations even for dignitaries
       whom they knew personally.

       Washington Convention Center

       The first concern cited in the Washington Post article was that
       “[t]hree contributors who raised $300,000 or more for the
       inauguration said they were never asked to show identification to
       retrieve dozens of tickets, including VIP passes that allowed them
       and their guests to meet privately with Obama.” Although donors
       would have observed USSS Uniformed Division personnel, U.S.
       Capitol Police, and Washington Metropolitan Police checking
       tickets throughout the inauguration, tickets were not intended to
       provide security but to control crowd size. Inaugural tickets were
       numbered, but did not have the name of the holder printed on
       them, bar codes, or other features that would enable a ticket-
       checker to link a ticket to a specific individual. PIC staff who had
       worked on previous inaugurations said that participants do swap
       tickets and do try to bring their friends into events, and they were
       not concerned by this activity. We do not consider the ticket
       distribution process a security weakness.

       Lincoln Memorial Concert

       The next two concerns cited pertained to the security screening for
       a meet-and-greet event that President-elect Obama had with donors
       and bundlers in the VIP tent at the Lincoln Memorial concert. The
       Washington Post reported that “[o]ne [donor] said he was waved


United States Secret Service After-Action Review of Inaugural Security


                               Page 14

       through with a camera that had no batteries despite warnings that it
       would have to be operational. The two [donors] said they later
       walked unattended by the President-elect’s motorcade and watched
       other donors lean on the limousine, posing for pictures.” Neither
       activity was a security breach. USSS and the JCCIC published
       lists of prohibited items in advance of the inaugural events, and
       cameras, operational or not, were not proscribed. Several USSS
       special agents and other security officials recalled entertainers who
       performed at the concert leaning against the presidential limousine,
       but said they would not have intervened unless an individual had
       attempted to tamper with the vehicle. USSS officials said, and the
       donors we interviewed confirmed, that everyone screened into the
       VIP area of the concert had gone through a magnetometer, and that
       their bags had been opened. The decision to hold meet-and-greet
       events was made the morning of the concert, so VIPs would not
       have known in advance about the occasion. In addition, donor
       VIPs recounted that law enforcement officers or others in the VIP
       party had kept them out of prohibited areas, and the President-elect
       himself assisted USSS by asking participants to move back after
       they had the opportunity to meet him. The activities cited in the
       Washington Post article from the Lincoln Memorial concert were
       not security lapses.

       Breakfast With Vice President-Elect Biden

       The fourth security concern cited in the Washington Post article
       was that “[b]y the next morning, when Biden spoke to donors at a
       Northwest [Washington, DC] hotel, one said it had become clear
       that ticket checks had become ‘a joke.’ He said he flashed a
       handful of coveted gray passes to gain access to the VIP room with
       Biden but brought in an extra guest.” From our interviews with
       PIC staff, USSS officials, and donor VIPs, we concluded that
       attendees had all been screened through a magnetometer. Access
       to the VIP area within the secure perimeter was a crowd-control
       function managed by the PIC, not a security function managed by
       USSS personnel. PIC staff said that they checked general
       admission tickets on entry, and that they would not necessarily
       have intervened when someone they recognized brought a guest
       who had a general admission ticket but did not have a gray pass
       into the VIP area within the secure perimeter. Because USSS
       relies on physical screening and monitoring, not invitations, to
       provide security, there were no security lapses at the Biden
       Breakfast.




United States Secret Service After-Action Review of Inaugural Security


                               Page 15

       Renaissance Hotel Staging VIPs to the Inaugural

       The most complex concern mentioned by donor VIPs was the
       staging process for the inauguration, for which donor VIPs were
       screened but walked across a public street after screening to board
       buses. Based on extensive interviews and a review of the staging
       site with USSS special agents responsible for security, we
       concluded that USSS provided adequate security, but that some of
       it would not have been visible to the donor VIPs. In addition, we
       noted that security was more stringent for dignitary VIPs who were
       seated on the inaugural platform than for donor VIPs, who did not
       have direct contact with the President-elect or Vice President-elect
       on Inauguration Day.

       The Washington Post article summarized a number of concerns
       about security at the Renaissance Hotel offsite staging area.
       Specifically, the Post reported:

                Several donors said they were particularly troubled
                by an episode before dawn Tuesday: More than 100
                corporate executives, Hollywood personalities and
                others had been told to gather for a security
                screening outside the Renaissance Hotel at 999
                Ninth St., NW. Once cleared, they were told, they
                would board “secure” buses that would ferry them
                to seats close to the president’s podium at the
                Capitol, and then to bleachers adjoining his viewing
                stand in front of the White House.

                But after passing through a magnetometer outside
                the hotel, members of the group said they were
                directed to a public sidewalk and told to find their
                way across Ninth Street to buses waiting in a
                convention center parking lot. Along the way, they
                said they mingled with throngs of spectators
                streaming toward the Mall. The VIPs were not
                screened again or asked for identification, they said.

       The article also noted that three donors sent tweets articulating
       their concerns, and that, “[t]o anyone surfing the Internet, accounts
       of the lax security surrounding the ‘secure’ buses were being
       broadcast in near-real time.” Chairman Thompson raised concerns
       that, had the reports by donor VIPs been accurate, the widespread
       availability of this information could be “making matters worse.”
       We interpreted this statement as concern that someone might react


United States Secret Service After-Action Review of Inaugural Security


                               Page 16

       to a report of lax security by attempting to mingle with the donor
       VIPs to board a bus or to pass a weapon to someone in the donor
       VIP group.

       USSS initiated many elements of the security plan before the
       dignitary and donor VIPs began to arrive at the Renaissance Hotel
       around 5:45 AM on Inauguration Day. Those measures would not
       have been readily apparent to guests. A reported 56 buses were
       parked in the public lot across from the Renaissance Hotel. (See
       appendix D, figure 3.) Dignitary VIPs and donor VIPs were
       allocated 5 and 21 buses respectively, while the other buses were
       used to transport Congressional Medal of Honor recipients,
       embassy officials, and friends and family of the incoming and
       outgoing President and Vice President. The night before the
       inauguration, the buses were parked, and after midnight were
       searched by Department of Defense explosives ordnance canines
       and secured. Many bus drivers had been screened and assigned
       buses before the donor VIPs arrived on site.

       USSS special agents on site, and most PIC staff and volunteers,
       were                           , which made them more difficult to
       identify. USSS special agents and Uniformed Division personnel
       arrived after 3:00 AM to set up stationary magnetometers and
       organize security. The security contingent included        uniformed
       personnel,      special agents                    , and a supervisory
       special agent                              and who remained on site
       throughout the event. More than 30 PIC staff and volunteers, most
       of whom had worked together on other major events in the Obama
       campaign, began arriving at 4:30 AM. They set up their
       operations, including stationing staff on the sidewalk to direct
       arriving donor VIPs and setting up refreshments. Unlike many
       PIC volunteers who wore tasseled red hats at other events, most
       PIC volunteers at the Renaissance Hotel were not wearing
       distinctive clothing, and the donor VIPs may not have identified all
       those standing on the sidewalk as PIC volunteers.

       About 750 donor VIPs formed a line in an outdoor courtyard of the
       Renaissance Hotel, and when they had been screened through a
       magnetometer, walked along Ninth Street, crossed the street,
       passed a table of refreshments, and boarded buses sequentially.
       (See appendix D, figure 3.) Donor VIPs were not carrying large
       bags. The PIC provided lunches after the swearing-in ceremony,
       which further assisted USSS personnel by limiting unusual or
       bulky packages brought onto the buses by the donor VIPs. USSS
       special agents, donor VIPs, and PIC staff recalled that both


United States Secret Service After-Action Review of Inaugural Security


                               Page 17

       pedestrian and vehicle traffic was thin for most of the staging,
       consistent with the early hour and the ban on privately owned
       vehicles. USSS special agents                         observed VIPs
       from their passage through the magnetometers to the point at
       which they boarded the buses. Because participants were wearing
       winter clothing and were asked to open their coats and bags for
       searches, the stream of donor VIPs leaving the screening area to
       cross the street at any given time was slow and relatively easy to
       monitor. USSS personnel on site said that they would have
       observed any member of the public joining the donor VIPs or
       handing anything to them, and that this had not happened. USSS
       personnel, PIC staff, and the donor VIPs we interviewed agreed
       that once donor VIPs boarded their buses, they did not get off to
       smoke or make telephone calls in the parking lot, limiting the
       possibility that an outsider could board a bus in place of one of the
       donor VIPs or pass an object to one of them after the USSS special
       agents observed the initial boarding process. None of the donor
       VIPs we interviewed were aware that           USSS special agents
                        were stationed at intervals on the street and in the
       parking lot to maintain a “line of sight” surveillance of the donor
       VIPs. We asked USSS, U.S. Capitol Police, Washington
       Metropolitan Police, and PIC staff who had worked on other major
       events, whether there was anything unusual about line-of-sight
       security arrangements and were told that the procedure was used
       routinely. We determined that while the circumstances described
       by the four donor VIPs were largely accurate, these individuals
       were not aware of key security measures, such as the presence of
       USSS special agents monitoring donor VIPs from when they left
       the magnetometers to when they boarded buses.

       Although the PIC staff was not providing security, their presence
       added a layer of scrutiny. Among those interviewed by a USSS
       special agent, the four donor VIPs who had been at the
       Renaissance Hotel were not aware of the number of PIC staff who
       were lining the Ninth Street sidewalk to observe and direct them,
       though most remembered hearing instructions on their way to the
       buses. At least one PIC staffer boarded each donor VIP bus, and
       stayed with the group until it was inside the secure perimeter at the
       Capitol. PIC staff recalled making constant spot-checks to verify
       that each donor VIP had an inaugural ticket as well as a map that
       served as a bus pass. PIC staff distributed the maps/bus passes
       while the donor VIPs were in the magnetometer line. Consistent
       with the potential threat involved, dignitary VIPs were more
       closely scrutinized than donor VIPs. PIC staff told us that they
       required dignitary VIPs to present an identification document, and


United States Secret Service After-Action Review of Inaugural Security


                               Page 18

       checked them against an invitation list both before and after they
       boarded the buses. At the Capitol, JCCIC representatives met the
       dignitary VIP bus and escorted the guests to their assigned seats on
       the platform.

       Unpredicted adjustments to the VIP staging made it more difficult
       to breach security. For example, only about half the bus drivers
       arrived at their designated time, so the PIC staff reassigned the
       early arrivals to the lead buses. The relatively late decision to
       stage Congressional Medal of Honor recipients at the Renaissance
       Hotel meant that some U.S. Capitol Police were on site earlier than
       originally scheduled. U.S. Capitol Police reported that their canine
       unit was in the parking lot early during the staging to sweep a
       group of buses that Department of Defense canines swept earlier
       before escorting those buses to the State Department to pick up
       another group of guests. PIC staff had informed donor VIPs that
       they would be screened and on the buses shortly after 6:00 AM,
       but with more than 750 donors, two stationary magnetometer
       machines, and the need to open winter coats for security checks,
       the screening was slower than expected. U.S. Capitol and
       Washington Metropolitan Police motorcade escorts told us that
       they arrived for the scheduled 7:30 AM departure, and that while
       they were waiting, they also observed later donor VIPs and all the
       dignitary VIPs cross the street and board buses. These police
       escorts were not tasked with monitoring the boarding process, but
       they created a visible police presence and would have reported any
       unusual activity to USSS personnel. Because of screening delays,
       dignitary VIPs were screened using hand-held magnetometers
       separately from donor VIPs. The VIP entourages began to leave
       the parking lot at 7:57 AM. Each of these procedural and
       scheduling changes would have disrupted any attempt to join the
       donor VIPs without going through security screening, or to pass
       anything to an accomplice among those cleared to board the buses.

       Capitol Hill Inauguration

       The sixth security concern cited
       in the Washington Post article
       was that “after a screening to sit
       in a ticketed area near President-
       elect Obama for his swearing-in,
       they mingled with public crowds
       but were never again checked for
       firearms or explosives.” Because
       the VIP entourages took a


United States Secret Service After-Action Review of Inaugural Security


                               Page 19

       circuitous route to drop-off points, donor VIPs would not have
       been aware that the public crowds they observed had already been
       screened at the secure perimeter about two blocks southeast of the
       donor VIP drop-off location. (See appendix D, figure 5.) The
       JCCIC staff stationed at the Capitol checked tickets for those who
       arrived on foot at stations inside the secure perimeter, while the
       PIC staff who arrived with the donor VIPs escorted them past these
       stations to their seats. This arrangement may have given donor
       VIPs the impression that they were mingling with the public, but
       they were in fact mingling with other screened inaugural guests
       who held tickets for the same seating section, referred to as the
       orange section. Two of the donor VIPs we interviewed had tickets
       for a comparable seating section north of the orange section,
       referred to as the yellow section, and recalled that military or law
       enforcement officers at the Capitol allowed them to cross through
       the orange section into the yellow section. This arrangement did
       not represent a security breach; the Multi-Agency Response
       recommended more flexibility in moving guests to comparable
       seats when sections filled unevenly. In addition, although the
       donor VIPs had seats near the front of the general audience, they
       were a considerable distance from the ceremony platform and
       separated from the inaugural podium by bullet-resistant glass.




       Given the limitations on what guests were permitted to bring with
       them, the unlikelihood of assembling a weapon unnoticed, and the
       bullet-resistant glass around the platform, the donor VIP entourage
       would not have had an opportunity to breach security surrounding
       the incoming President and Vice President. Dignitary VIPs who
       were seated on the inaugural platform had received more rigorous
       screening, and were escorted directly from their buses to their
       assigned seats.




United States Secret Service After-Action Review of Inaugural Security


                               Page 20

USSS Met Standards Sought by Congressional Inquiry

        USSS Protective Security Plans Were Reasonable

        The USSS protective security plans for the events described in the
        Washington Post article anticipated potential security threats. The
        plans established layers of security, assigned logistical and
        operational responsibilities to specified agencies, and identified
        site postings and duties for each location, including timelines and
        explanations of how the events would develop. The plans
        addressed resource allocations and assignment of law enforcement
        duties in correlation to the security requirements for each venue.
        USSS personnel revised the plans to meet emerging requirements
        or changing conditions. The flexibility of the USSS planning
        process allowed its special agents and Uniformed Division
        personnel to recommend and make changes to the plans for their
        venues even into the execution phase. This combination of using
        past experiences and responding to changing circumstances is a
        key component of the USSS planning process for National Special
        Security Events.

        USSS Managed Security Operations as Required

        For the events described in the Washington Post article, we
        identified no deficiencies in security operations. The fluid
        planning process presented a challenge, but communication and
        information sharing among security personnel and between
        security personnel and PIC staff was good for the events we
        reviewed. We consider small changes in procedures, such as
        screening dignitary VIPs at the Renaissance Hotel with hand-held
        magnetometers, to be a prudent deviation from advance planning.
        The latitude USSS allows its personnel to make adjustments based
        on circumstances is necessary to their ability to provide protection.
        We also observed that USSS officials expect personnel to critique
        operations and report derogatory or skeptical comments. This
        culture enables USSS personnel to identify and address
        weaknesses in USSS procedures.

        USSS Internal Reviews Improve Security Planning

        Because USSS identified and addressed the necessary areas for
        improvement, both in the Multi-Agency Response requested by
        Senator Feinstein and in its after-action review of the concerns




 United States Secret Service After-Action Review of Inaugural Security


                                Page 21

       raised in the Washington Post article, we are not making
       recommendations in our report. Specifically:

       •	 New Communication Technologies. The three tweets
          expressing concerns about lax security described in the
          Washington Post article did not appear to have been widely
          read or discussed, either at the time they were posted or in
          response to the article. Nonetheless, USSS concluded in the
          Multi-Agency Report that it must develop more advanced
          mechanisms to monitor and respond to social networking sites
          as technological advances expand the availability of real-time
          information. The recommendations in the Multi-Agency
          Response address this requirement.

       •	 Videotape Footage. Media reports on inaugural security noted
          that more than 5,000 existing fixed outdoor cameras located
          throughout the Washington, DC, region would be operating
          during the inauguration, and those with views relevant for
          security would be monitored in real time. USSS currently does
          not routinely videotape political events, but may access footage
          obtained by other law enforcement agencies, the media, and the
          public. However, there was no usable footage of the
          Renaissance Hotel staging process. USSS determined that
          cameras fixed to neighboring buildings were not aimed at the
          area of the parking lot where the buses were staged, and that
          cameras fixed to poles in the parking lot were not turned on, as
          the parking lot was closed to privately owned vehicles during
          the inauguration. Without such footage, our review relied on
          eyewitness testimony and visits to the site to determine what
          happened on Inauguration Day. Although the after-action
          review process was labor-intensive, with more than 80
          eyewitness interviews, we concluded that USSS methodology
          enabled eyewitnesses to identify potential weaknesses.

       •	 Areas For Improvement. In its after-action review, USSS
          concluded that logistics at the Renaissance Hotel staging site
          would have been better if USSS personnel had screened donor
          VIPs through magnetometers on the same side of the street as
          the buses. In our review of the staging process, we determined
          that screening was slowed because there were too few
          magnetometers to screen VIPs who wore winter coats that
          needed to be opened and checked. In addition, a few donor
          VIPs observed that the concerns cited in the Washington Post
          article may have resulted from security that was difficult for



United States Secret Service After-Action Review of Inaugural Security


                               Page 22

            the public to recognize, rather than a lack of security, and
            suggested during their USSS interviews that a more visible
            police presence would have allayed their concerns. Such
            critiques—by USSS personnel, by us, and by the donor VIPs—
            indicate that USSS could improve its process in some areas.
            However, the Multi-Agency Response and the USSS after-
            action review identified and addressed these concerns.

       We recommend that the Director, U.S. Secret Service:

       Recommendation #1: Provide documentation that the after-action
       report recommendation to improve logistics in situations
       comparable to the 2009 inaugural off-site staging has been
       incorporated into USSS planning materials, for example through a
       memorandum, or updated guidance, checklist, or training
       materials.

       USSS Capably Managed Security for Historic Election

       During the 18 months before President Obama’s inauguration,
       USSS provided protective coverage to candidate and then
       President-elect Obama, and worked closely with local law
       enforcement officers, the FBI, U.S. Attorney’s office, and
       campaign staff. This coordination was central to the ability of
       USSS personnel to conduct threat assessment and provide security
       during the inauguration. USSS provided security for the Obama
       campaign as events became increasingly larger and more
       logistically complex. USSS was also conducting threat
       assessments as Senator Obama’s profile became increasingly
       prominent in the presidential primaries and the general election.
       Although the volume of threats was significantly more than for
       previous presidential candidates, we concluded that the USSS
       strategy of investigating all articulated threats while also planning
       to limit opportunities for an individual to bring unauthorized
       weapons near protected officials on the day of an event was
       appropriate.

       Although we concluded that there were no security breaches at the
       inaugural events described in the Washington Post article, the
       article illustrates the diverse elements that comprise good security.
       The Washington Post reporter was alert to potential security
       breaches. Based on our interviews with the named donors and
       bundlers quoted in the article, we concluded that they were
       motivated by a genuine concern for the President’s safety. Even
       though the article did not lead to other anecdotes of potential


United States Secret Service After-Action Review of Inaugural Security


                               Page 23

       security breaches, it generated congressional concern. USSS
       response to the specific concerns cited in the article was to conduct
       an immediate and thorough investigation and to identify areas for
       improvement. Law enforcement officers, PIC staff, and donor
       VIPs provided necessary information for the USSS investigation
       and our parallel review. Finally, USSS cooperated with our
       review.

OIG Analysis of Management Comments
       The U.S. Secret Service has concurred with our recommendation
       and has indicated that it will provide information concerning
       compliance by November 14, 2009. We look forward to receiving
       that information and closing the recommendation at that time.




United States Secret Service After-Action Review of Inaugural Security


                               Page 24

Appendix A
Purpose, Scope, and Methodology

                     The Office of Inspector General, including representatives from
                     the Office of Inspections and the Office of Investigations, met with
                     USSS officials on February 4, 2009. We learned that USSS
                     officials had responded immediately to the concerns cited in the
                     Washington Post article. They already had conducted extensive
                     interviews with USSS Uniformed Division personnel and special
                     agents, and with other federal law enforcement officers who were
                     present at the Lincoln Memorial concert on Sunday,
                     January 18, 2009; Renaissance Hotel staging in the early morning
                     of January 20, 2009; and the U.S. Capitol during the swearing-in
                     ceremony. Our Office of Investigations reviewed USSS interview
                     questionnaires with the interview subjects’ responses to standard
                     questions and USSS officials’ interview notes.

                     We observed and participated in subsequent interviews USSS
                     conducted with U.S. Capitol and Washington Metropolitan Police
                     officers who accompanied the entourages from the Renaissance
                     Hotel staging area to the Capitol for the inauguration. In addition,
                     we met with the two USSS supervisory special agents responsible
                     for the Renaissance Hotel staging to do a walk-through of the site
                     and to discuss in detail the VIP bus staging process. We also
                     reviewed security plans for the Lincoln Memorial concert, and
                     reviewed the inauguration staging at the Capitol with USSS to
                     discuss the security measures. We reviewed the after-action
                     review report of the USSS internal investigation into the concerns
                     cited in the Washington Post article, which included summaries of
                     the 81 interviews USSS conducted. We also obtained an
                     unredacted version of the Multi-Agency Response.

                     We observed and participated in interviews with several key PIC
                     staff who were onsite at the Renaissance Hotel, and five of the six
                     donors and bundlers quoted in the Washington Post article. We
                     requested that USSS officials communicate with the owners of
                     cameras in the vicinity of the Renaissance Hotel to determine
                     whether there was any usable footage. USSS officials determined
                     that cameras fixed to neighboring buildings were not aimed at the
                     area of parking lot where the buses were staged. Cameras fixed to
                     poles in the parking lot were not turned on, as the parking lot was
                     closed to the public during the inauguration. USSS officials also
                     informed us that they had requested that the Washington Post offer
                     a meeting with the reporter who wrote the January 30, 2009,
                     article, and the unnamed sources cited in the article, but did not
                     receive a response.



              United States Secret Service After-Action Review of Inaugural Security


                                             Page 25

Appendix A
Purpose, Scope, and Methodology


                     In addition to participating in the USSS internal review, we
                     reviewed several issues independently. We requested that the
                     Washington Post forward a letter we wrote to the unnamed sources
                     in their article, which asked the sources to call or write us to
                     discuss what they remembered. The Washington Post confirmed
                     that it had forwarded our letter, but we received no responses. We
                     also interviewed PIC staff and incorporated their comments into
                     this report. Finally, we met with representatives of the USSS
                     Protective Research and Protective Operations offices to discuss
                     USSS options for monitoring, anticipating, and addressing
                     potential threats.

                     We conducted extensive Internet research to gauge whether there
                     were other sources with allegations similar to those in the
                     Washington Post article. In addition, we determined whether the
                     issues cited in the article generated additional stories or concerns.
                     We read accounts of the inauguration in hundreds of articles,
                     blogs, and social networking sites, such as Facebook and
                     Twitter.com. We determined that the concerns cited in the
                     Washington Post article were isolated. We were not able to find
                     specific allegations about lax security from others who wrote about
                     the inauguration during or shortly after the event. Although the
                     three tweets described in the Post article were available to the
                     general public in real time, we could not locate anyone outside the
                     donor VIP entourage who commented on the tweets or provided
                     similar stories. The Post article was reprinted verbatim in many
                     local papers and referenced on many websites, but it generated few
                     comments and no new reports of specific security concerns.




              United States Secret Service After-Action Review of Inaugural Security


                                             Page 26

Appendix B
Management Comments to the Draft Report




             United States Secret Service After-Action Review of Inaugural Security


                                            Page 27

Appendix C
Relevant Articles And Correspondence

Figure 1. January 30, 2009, Washington Post Article




                  United States Secret Service After-Action Review of Inaugural Security


                                                 Page 28

Appendix C
Relevant Articles and Correspondence




              United States Secret Service After-Action Review of Inaugural Security


                                             Page 29

Appendix C
Relevant Articles and Correspondence




[http://www.washingtonpost.com/wp-dyn/content/article/2009/01/29/AR2009012903894.html]




                 United States Secret Service After-Action Review of Inaugural Security


                                                Page 30

Appendix C
Relevant Articles and Correspondence
Figure 2. February 2, 2009, Congressional Request




                 United States Secret Service After-Action Review of Inaugural Security


                                                Page 31

Appendix C
Relevant Articles and Correspondence




[http://www.washingtonpost.com/wp-
dyn/content/story/2009/02/03/ST2009020301448.html?sid=ST2009020301448]




                 United States Secret Service After-Action Review of Inaugural Security


                                                Page 32

Appendix C
Relevant Articles and Correspondence
Figure 3. February 4, 2009, Washington Post Article




                  United States Secret Service After-Action Review of Inaugural Security


                                                 Page 33

Appendix C
Relevant Articles and Correspondence




[http://www.washingtonpost.com/wp-srv/metro/pdf/Skinner.pdf?sid=ST2009020301448&s_pos=list]




                 United States Secret Service After-Action Review of Inaugural Security


                                                Page 34

Appendix D
Relevant Graphics

Figure 1. JCCIC Orange Ticket




                United States Secret Service After-Action Review of Inaugural Security


                                               Page 35

Appendix D
Relevant Graphics

            Figure 2. JCCIC Map of Reserved Ticketed Areas




              United States Secret Service After-Action Review of Inaugural Security


                                             Page 36

Appendix D
Relevant Graphics
Figure 3. Renaissance Hotel Offsite (Donor VIP Movement From Hotel to Buses in Red)




Figure 4. Donor VIP Tweets on Inauguration, From Twitter




                 United States Secret Service After-Action Review of Inaugural Security


                                                Page 37

Appendix D
Relevant Graphics


Figure 5. Donor VIP Seating; Sections 5 and 6 Circled




                 United States Secret Service After-Action Review of Inaugural Security


                                                Page 38

Appendix E
Major Contributors to This Report


                     Douglas Ellice, Chief Inspector
                     Lorraine Eide, Senior Inspector
                     Susan Fischer, Inspector
                     Harry Horton, Senior Special Agent




              United States Secret Service After-Action Review of Inaugural Security


                                             Page 39

Appendix F
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      USSS Director
                      USSS Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




              United States Secret Service After-Action Review of Inaugural Security


                                             Page 40

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
